                   AUDIT REPORT

                 Audit of NRC’s Implementation of Its
           National Environmental Policy Act Responsibilities

                     OIG-14-A-09 December 24, 2013




All publicly available OIG reports (including this report) are accessible through

                              NRC’s Web site at:

           http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL




                                   December 24, 2013




MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations


FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S IMPLEMENTATION OF ITS NATIONAL
                            ENVIRONMENTAL POLICY ACT RESPONSIBILITIES
                            (OIG-14-A-09)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Implementation of Its National Environmental Policy Act Responsibilities.

The report presents the results of the subject audit. Please provide information on
actions taken or planned on the recommendation within 30 days of the date of this
memorandum. Actions taken or planned are subject to OIG followup as stated in
Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Materials & Waste Safety Team, at
415-5914.

Attachment: As stated

cc:    R. Mitchell, OEDO
       M. Khanna, OEDO
       J. Arildsen, OEDO
       C. Jaegers, OEDO
                           Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities




EXECUTIVE SUMMARY

        BACKGROUND

                The National Environmental Policy Act

                The National Environmental Policy Act of 1969, as amended (NEPA),
                established a national policy to encourage productive and enjoyable
                harmony between man and his environment, promote efforts that will
                prevent or eliminate damage to the environment and biosphere and
                stimulate the health and welfare of man, and enrich the understanding
                of ecological systems and natural resources. NEPA requires Federal
                agencies, as part of their decisionmaking process, to consider the
                environmental impacts of actions under their jurisdiction. NEPA is a
                procedural statute, imposing no substantive requirements on agencies
                beyond conducting the environmental review.

                The Nuclear Regulatory Commission’s (NRC) regulations require
                preparation of an environmental impact statement for a license to possess
                and use source material 1 for uranium milling or production of uranium
                hexafluoride. An environmental impact statement is also required to
                license a uranium enrichment facility.

                The Atomic Energy Act and NRC Regulation

                The Atomic Energy Act is the fundamental U.S. law on the civilian use of
                nuclear materials. The act empowers NRC to regulate uses of nuclear
                materials in order to protect health and safety and minimize danger to life
                or property. NRC regulates uses of nuclear materials through a
                combination of regulatory requirements, including licensing, inspection,
                and enforcement.




1
  Source material means (1) Uranium or thorium, or any combination thereof, in any physical or chemical
form or (2) ores which contain by weight one-twentieth of one percent (0.05%) or more of (i) Uranium, (ii)
thorium, or (iii) any combination thereof. Source material does not include special nuclear material.


                                                       i
              Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities



     NRC’s NEPA and Licensing Process

     NRC’s NEPA review process begins when the agency receives an
     application for a proposed licensing action. Once NRC considers the
     application complete and accepts it for review, an environmental review to
     comply with NEPA begins.

     The environmental review parallels the separate agency review for
     compliance with its technical or safety regulations. The safety review
     concludes with the issuance of a safety evaluation report. The safety
     evaluation report documents the NRC staff’s review and safety evaluation
     of an application for an NRC license.

     Principles of Good Regulation

     In pursuing its mission, NRC strives to adhere to its Principles of Good
     Regulation – independence, openness, efficiency, clarity, and reliability.
     More specifically, NRC’s principles state that regulations should be
     coherent, logical, and practical. Furthermore, there should be a clear
     nexus between regulations and agency goals and objectives. Agency
     positions should be readily understood and easily applied.

OBJECTIVE

     The audit objective was to determine whether NRC implements its
     environmental review and consultation responsibilities as prescribed by
     NEPA. Appendix A contains information on the audit scope and
     methodology.

RESULTS IN BRIEF

     NRC conducts environmental reviews and prepares environmental impact
     statements for certain licensing actions, as required by NEPA. However,
     for two types of licensing actions, fuel cycle facilities and uranium recovery
     facilities, the licensing process lacks clarity regarding the purpose of the
     NEPA review. Further, the agency faces challenges to complete
     legislatively required consultations regarding historic and cultural
     resources. These challenges are discussed in Appendix B.



                                         ii
                 Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


RECOMMENDATION

        This report makes one recommendation to clarify the licensing process
        regarding the purpose of the NEPA review.


AGENCY COMMENTS


        An exit conference was held with the agency on November 21, 2013.
        Prior to this meeting, after reviewing a discussion draft, agency
        management provided supplemental information that has been
        incorporated into this report, as appropriate. As a result, agency
        management stated their general agreement with the finding and
        recommendation in this report and opted not to provide formal comments
        for inclusion in this report.




                                            iii
                     Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ………………………………………………………..i

        I. BACKGROUND ………………………….……………………………………1

        II. OBJECTIVE .......................................................................................... 3

        III. FINDING .............................................................................................. 3

                 NRC Imposes License Conditions Outside the
                 Atomic Energy Act........................................................................... 3

        IV. AGENCY COMMENTS ........................................................................ 7



    APPENDICES

        A. OBJECTIVE, SCOPE, AND METHODOLOGY .................................... 8

        B. THE NATIONAL HISTORIC PRESERVATION ACT AND
           SECTION 106 CONSULTATION ....................................................... 11




                                                   iv
                           Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities



I.     BACKGROUND

                The National Environmental Policy Act

                The National Environmental Policy Act of 1969, as amended (NEPA),
                established a national policy to encourage productive and enjoyable
                harmony between man and his environment, promote efforts that will
                prevent or eliminate damage to the environment and biosphere and
                stimulate the health and welfare of man, and enrich the understanding
                of ecological systems and natural resources. NEPA requires Federal
                agencies, as part of their decisionmaking process, to consider the
                environmental impacts of actions under their jurisdiction. NEPA is a
                procedural statute, imposing no substantive requirements on agencies
                beyond conducting the environmental review.

                NEPA requires that a detailed statement of the environmental impact of an
                agency’s proposed action and reasonable alternatives be prepared for
                “major Federal actions significantly affecting the quality of the human
                environment.” This detailed statement is called an environmental impact
                statement.

                The Nuclear Regulatory Commission’s (NRC) regulations require
                preparation of an environmental impact statement for a license to possess
                and use source material 2 for uranium milling or production of uranium
                hexafluoride. An environmental impact statement is also required to
                license a uranium enrichment facility.

                The Atomic Energy Act and NRC Regulation

                The Atomic Energy Act is the fundamental U.S. law on the civilian use of
                nuclear materials. The act empowers NRC to regulate uses of nuclear
                materials in order to protect health and safety and minimize danger to life
                or property. NRC regulates uses of nuclear materials through a
                combination of regulatory requirements, including licensing, inspection,
                and enforcement.

2
  Source material means (1) Uranium or thorium, or any combination thereof, in any physical or chemical
form or (2) ores which contain by weight one-twentieth of one percent (0.05%) or more of (i) Uranium, (ii)
thorium, or (iii) any combination thereof. Source material does not include special nuclear material.


                                                      1
         Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


NRC’s NEPA and Licensing Process

NRC’s NEPA review process begins when the agency receives an
application for a proposed licensing action. Once NRC considers the
application complete and accepts it for review, an environmental review to
comply with NEPA begins. For licensing actions requiring an
environmental impact statement, a typical NRC environmental review
includes analyses of impacts to specific resource areas, including air,
water, animal life, natural resources, and property of historic, archeological
or architectural significance. In its NEPA review, NRC also evaluates
cumulative, economic, social, cultural, and environmental justice impacts.

The environmental review parallels the separate agency review for
compliance with its technical or safety regulations. The safety review
concludes with the issuance of a safety evaluation report. The safety
evaluation report documents the NRC staff’s review and safety evaluation
of an application for an NRC license.

Principles of Good Regulation

In pursuing its mission, NRC strives to adhere to its Principles of Good
Regulation – independence, openness, efficiency, clarity, and reliability.
More specifically, NRC’s principles state that regulations should be
coherent, logical, and practical. Furthermore, there should be a clear
nexus between regulations and agency goals and objectives. Agency
positions should be readily understood and easily applied.




                                    2
                         Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities



II.    OBJECTIVE

               The audit objective was to determine whether NRC implements its
               environmental review and consultation responsibilities as prescribed by
               NEPA. Appendix A contains information on the audit scope and
               methodology.

III.   FINDING

               NRC conducts environmental reviews and prepares environmental impact
               statements for certain licensing actions, as required by NEPA. However,
               for two types of licensing actions, fuel cycle facilities and uranium recovery
               facilities, the licensing process lacks clarity regarding the purpose of the
               NEPA review. Further, the agency faces challenges to complete
               legislatively required consultations regarding historic and cultural
               resources. These challenges are discussed in Appendix B. 3

               NRC Imposes License Conditions Outside the Atomic Energy Act

               NRC imposes license conditions for fuel cycle and uranium recovery
               facilities that do not meet the intent of the Atomic Energy Act. NRC should
               impose only license conditions that are appropriate and necessary to meet
               the intent of the act. Some license conditions are imposed because NRC
               does not have adequate guidance for staff preparing licenses. When NRC
               ties these license conditions to the license, licenses contain conditions for
               which NRC cannot hold licensees accountable.




3
 During the audit, OIG identified that the agency was not in compliance with its regulations
relative to the preparation of environmental impact statements. OIG reported this non-
compliance in Audit of NRC’s Compliance With 10 CFR Part 51 Relative to Environmental
Impact Statements [OIG-13-A-20], issued August 20, 2013.


                                                    3
         Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


License Conditions and the Atomic Energy Act

NRC regulations state the agency can impose license conditions that are
appropriate and necessary to meet the intent of the Atomic Energy Act
and NRC safety regulations. When NRC determines a license application
meets the requirements of the Atomic Energy Act and NRC regulations,
NRC will issue a license. License conditions should be appropriate and
necessary to meet the intent of the Atomic Energy Act and NRC
regulations.

NEPA requires NRC to conduct an environmental review. NEPA does not
expand NRC’s authority to issue a permit or license for activities that are
not reasonably related to radiological health and safety or protection of the
common defense and security. Although NEPA requires NRC to consider
environmental effects, it does not expand the agency’s authority under the
Atomic Energy Act. NRC is required to issue a license if an applicant
meets the Atomic Energy Act and NRC’s regulatory requirements.

NRC Imposes License Conditions That Do Not Meet the Intent of the
Atomic Energy Act

For fuel cycle and uranium recovery facilities, NRC is imposing license
conditions outside of the Atomic Energy Act and NRC’s safety regulations.
These conditions originate from the applicant’s environmental report.
NRC uses the environmental report to aid in the development of the
environmental impact statement.

An applicant for a fuel cycle or uranium recovery facility license must
submit an environmental report as part of its license application. The
applicant’s environmental report must discuss the environmental impacts
of the proposed action, any adverse environmental effects that cannot be
avoided, and alternatives to the proposed action. The environmental
report must also contain a description of the proposed site, proposed
environmental mitigation measures, and environmental monitoring
programs.




                                    4
                           Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


                Environmental reports for fuel cycle and uranium recovery facilities include
                mitigation measures such as:

                •   Measures that will be in place to minimize impacts on water resources
                    during construction and operation.

                •   Use of native plant species to revegetate disturbed areas to enhance
                    wildlife habitat.

                •   Minimizing fugitive dust production, noise, and wildlife mortality.

                •   Measures that will be in place to minimize the impact to visual and
                    scenic resources.

                •   Reducing traffic volumes.

                NRC imposed these or similar license conditions for 12 facilities4 by
                making the entire environmental report a license tie down. 5 A tie down is
                a licensee commitment to NRC that becomes part of the license. When
                the environmental report is a license tie down, all statements in it become
                part of the license.

                The license conditions that result from tie down of the environmental
                report in its entirety are distinct from conditions enumerated in a license
                related to statutory requirements other than the Atomic Energy Act. For
                example, consultations required by the National Historic Preservation Act
                may result in NRC imposing a license condition related to historic and
                cultural resources. 6 Other examples include license conditions related to

4
 This includes six fuel cycle facilities that received licenses from March 2005 through March 2013 and six
uranium recovery facilities operating in 2013.
5
 Environmental reports can contain conditions related to radiological health and safety, for example,
proposed monitoring programs for radiological effluents during facility operations.
6
 A cultural resources license condition might state, “Before engaging in any developmental activity not
previously assessed by the NRC, the licensee shall administer a cultural resource inventory if such survey
has not been previously conducted and submitted to the NRC. All disturbances associated with the
proposed development will be completed in compliance with the National Historic Preservation Act (as
amended) and its implementing regulations (36 CFR 800), and the Archaeological Resources Protection
Act (as amended) and its implementing regulations (43 CFR 7).”



                                                      5
                         Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


               non-radiological chemical constituents of groundwater authorized under
               the Uranium Mill Tailings Radiation Control Act or related to surveys of
               endangered or threatened species under the Endangered Species Act.
               While these non-radiological license conditions are tied to statutes other
               than the Atomic Energy Act, conditions arising from the environmental
               report, such as revegetation or traffic control measures, are not.

               NRC Does Not Have Adequate Guidance

               NRC is imposing license conditions outside of the Atomic Energy Act and
               other statutory requirements because the agency does not have adequate
               guidance for staff preparing licenses for fuel cycle and uranium recovery
               facilities. For fuel cycle facilities, staff use a licensing review handbook to
               prepare a license. For uranium recovery facilities, staff use a guidance
               document 7 and an operations manual. These documents provide very
               little direction on how to write the license and no direction on what
               documents to include as license tie downs. The licensing review
               handbook merely suggests staff look at examples of previously completed
               licenses. If the previously completed license was written with the
               environmental report as a tie down, then it is likely that the new license will
               also include the report as a tie down.

               Licenses Contain Conditions for Which NRC Cannot Hold Licensees
               Accountable

               When NRC makes the environmental report a license tie down, licenses
               then contain conditions for which NRC cannot hold licensees accountable.
               In addition, these license conditions are not inspected or enforced by
               NRC.

               Further, the license is misleading. The environmental report is not a basis
               for issuing a license. Rather, it is to aid the agency in compliance with
               NEPA. However, making the entire environmental report a license tie
               down gives the appearance that the environmental report and safety
               evaluation report have the same weight in the agency’s decision to issue a



7
 The guidance document that staff use is NUREG-1569, Standard Review Plan for In Situ Leach
Uranium Extraction License Applications.


                                                    6
                 Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


        license. It also appears that the applicant’s environmental report was a
        basis for issuing the license. This is inconsistent with NRC’s stated
        regulatory principles—agency positions should be readily understood and
        easily applied.

        OIG recommends that the Executive Director for Operations:

        1. Develop and implement detailed guidance for fuel cycle and uranium
           recovery staff regarding inclusion of license conditions and tie downs in
           licenses.



IV. AGENCY COMMENTS


        An exit conference was held with the agency on November 21, 2013.
        Prior to this meeting, after reviewing a discussion draft, agency
        management provided supplemental information that has been
        incorporated into this report, as appropriate. As a result, agency
        management stated their general agreement with the finding and
        recommendation in this report and opted not to provide formal comments
        for inclusion in this report.




                                            7
                 Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities

                                                                                            APPENDIX A


OBJECTIVE, SCOPE, AND METHODOLOGY


    OBJECTIVE

        The audit objective was to determine whether NRC implements its
        environmental review and consultation responsibilities as prescribed by
        NEPA.

    SCOPE

        This audit focused on how NRC implements its environmental review and
        consultation responsibilities under NEPA. Specifically, the audit team
        focused on NRC licensing actions that require preparation of an
        environmental impact statement. Additionally, the team reviewed how the
        agency meets its consultation requirements under the National Historic
        Preservation Act. We conducted this performance audit at NRC
        headquarters (Rockville, Maryland) from July 2012 through September
        2013. Internal controls related to the audit objective were reviewed and
        analyzed. Throughout the audit, auditors were aware of the possibility or
        existence of fraud, waste, or misuse in the program.

    METHODOLOGY

        Document Reviews

        The OIG audit team reviewed relevant criteria, including, among others,
        the Atomic Energy Act of 1954, as amended; the National Environmental
        Policy Act of 1969, as amended; the National Historic Preservation Act of
        1966, as amended; the Uranium Mill Tailings Radiation Control Act of
        1978, as amended; the Endangered Species Act of 1973, as amended; 10
        CFR Part 51, “Environmental Protection Regulations for Domestic
        Licensing and Related Regulatory Functions”; 10 CFR Part 40, “Domestic
        Licensing of Source Material”; and 10 CFR Part 70, “Domestic Licensing
        of Special Nuclear Material.”




                                            8
         Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


The OIG team reviewed guidance and documents pertaining to NRC’s
implementation of NEPA and the National Historic Preservation Act. Key
documents reviewed included:

•   NUREG-1748, Environmental Review Guidance for Licensing Actions
    Associated with NMSS Programs.

•   NUREG-1569, Standard Review Plan for In Situ Leach Uranium
    Extraction License Applications.

•   NUREG-1556, Volume 20, Consolidated Guidance about Materials
    Licenses: Guidance about Administrative Licensing Procedures.

•   Office-level guidance.

•   SECY papers.

•   Licenses for fuel cycle and uranium recovery facilities.

•   Environmental Reports.

•   NEPA – National Historic Preservation Act Section 106 Handbook.

•   NRC Tribal Protocol Manual.

•   National Historic Preservation Act Section 106 Flowchart.

Interviews

At NRC headquarters in Rockville, Maryland, auditors interviewed staff
and management from the Office of Federal and State Materials and
Environmental Management Programs, the Office of Nuclear Reactor
Regulation, the Office of New Reactors, the Office of Nuclear Material
Safety and Safeguards, the Office of the General Counsel, and the Atomic
Safety Licensing Board Panel, to gain an understanding of their roles and
responsibilities related to the environmental review. Auditors also
interviewed a representative from the Council on Environmental Quality.




                                    9
         Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


Auditors received training in the implementation of the National
Environmental Policy Act.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusions based on our audit
objective.

The audit work was conducted by Sherri Miotla, Team Leader; Levar Cole,
Audit Manager; Kristen Lipuma, Senior Analyst; Kevin Nietmann, Senior
Technical Advisor; and Amy Hardin, Auditor.




                                   10
                 Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities

                                                                                            APPENDIX B


THE NATIONAL HISTORIC PRESERVATION ACT AND SECTION 106
CONSULTATION


        The audit objective was to determine whether NRC implements its
        environmental review and consultation responsibilities as prescribed by
        NEPA. The purpose of Appendix B is to address NRC’s consultation
        responsibilities.

        NRC faces a growing challenge in consultation related to historic and
        cultural resources. The National Historic Preservation Act of 1966
        requires Federal agencies to engage in consultation to assess and
        mitigate the impacts of Federal undertakings on historic resources. This
        consultation process, referred to as a Section 106 consultation or a
        Section 106 review, now also includes cultural as well as historical
        resources. In completing its consultation responsibilities, NRC must make
        “a good faith and reasonable effort” to identify tribes with ancestral
        connections to the affected area and provide those tribes “reasonable”
        opportunity to identify resources and participate in the resolution of an
        undertaking’s effects.

        Governmentwide NEPA-implementing regulations require, to the fullest
        extent possible, all agencies to integrate the environmental impact review
        and Section 106 review. NRC adopted this approach in its regulations.
        Because NRC integrates the environmental and Section 106 reviews, the
        environmental review is not complete until the Section 106 review is
        complete. As a result, a license, license amendment, or construction
        permit cannot be issued until the environmental review and Section 106
        review are complete.

        Challenges

        NRC strives to complete consultations as required under Section 106 of
        the National Historic Preservation Act. However, NRC faces numerous
        challenges in completing consultations under the National Historic
        Preservation Act. Some challenges specific to NRC are:



                                           11
                        Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities


              •   The obligation to conduct a Section 106 consultation lies with NRC, yet
                  the review of historic and cultural resources is dependent on an
                  applicant’s ability to gather information and willingness to provide
                  resources to support consultation activities.

              •   The greatest impacts on historic and cultural resources may result from
                  site-preparation activities outside NRC's regulatory jurisdiction.

              Additional challenges shared by other agencies include:

              •   The concept of “reasonable” remains open-ended.

              •   Cultural differences between Federal agencies and tribes about the
                  meaning of "consultation" and consultation process.

              •   Identifying the correct decisionmaking authority within a tribe.

              •   Tribes may lack resources for travel to meetings and site visits.


              Accomplishments

              NRC has made many efforts to address the challenges it faces in
              completing Section 106 consultations. Examples of NRC’s efforts include:

              •   Conducting lessons learned reviews.

              •   Conferring with the Advisory Council on Historic Preservation. 8

              •   Developing draft guidance.

              •   Seeking public comment on a draft Tribal Protocol Manual and input on
                  a possible policy for tribal consultations.



8
 The National Historic Preservation Act established the Advisory Council on Historic
Preservation to oversee, through regulations, guidance, and review, the process of Federal
agency consultation.


                                                  12
         Audit of NRC’s Implementation of Its National Environmental Policy Act Responsibilities




The Solution Lies Outside NRC

NRC’s ability to overcome these challenges is difficult because the
requirements and definitions for the extent and content of consultations
have been established outside NRC.

Additionally, the context of Section 106 consultations continues to evolve.
For example, a June 2013 Executive Order established a White House
Council on Native American Affairs, whose mission includes developing a
more effective and efficient process for agencies to fulfill tribal consultation
as set forth in Executive Order 13175. It is not clear whether the Council
will provide a context for addressing issues faced by many Federal
agencies or how future developments will further impact NRC’s
consultations.




                                   13
